<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                               

                         [H.A.S.C. No. 115-106]

                                HEARING

                                  ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

     GROUND FORCE MODERNIZATION BUDGET REQUEST FOR FISCAL YEAR 2019

                               __________

                              HEARING HELD
                             APRIL 18, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-693                       WASHINGTON : 2019                     
          
----------------------------------------------------------------------------------- 
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Murray, LTG John M., USA, Deputy Chief of Staff, G-8, Office of 
  the U.S. Army Deputy Chief of Staff; and LTG Paul Ostrowski, 
  USA, Military Deputy to the Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology..........................     4
Walsh, LtGen Robert S., USMC, Commanding General, Marine Corps 
  Combat Development Command, and Deputy Commandant, Combat 
  Development and Integration, Headquarters, U.S. Marine Corps; 
  and BGen Joseph Shrader, USMC, Commanding General, Marine Corps 
  Systems Command................................................     5

                                APPENDIX

Prepared Statements:

    Murray, LTG John M., joint with LTG Paul Ostrowski...........    32
    Turner, Hon. Michael R.......................................    29
    Walsh, LtGen Robert S., joint with BGen Joseph Shrader.......    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gallego..................................................    61

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    67
    Mr. Carbajal.................................................    67
    Mr. Cook.....................................................    66
    Mr. Turner...................................................    65
    
    
.    
    GROUND FORCE MODERNIZATION BUDGET REQUEST FOR FISCAL YEAR 2019

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                         Washington, DC, Wednesday, April 18, 2018.
    The subcommittee met, pursuant to call, at 3:01 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
  OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Turner. The committee will come to order. The 
subcommittee meets today to review the Army and Marine Corps 
ground force modernization program for the fiscal year [FY] 
2019 budget request.
    I would like to welcome our guests: General John Murray, 
Deputy Chief of Staff, G-8, principal military financial 
advisor for Army program development; Lieutenant General Paul 
Ostrowski, Military Deputy to the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology; Lieutenant 
General Robert Walsh, Deputy Commandant for the Marine Corps 
for Combat Integration; and Brigadier General Joseph Shrader, 
Commanding General, Marine Corps Systems Command--you all need 
longer titles.
    [Laughter.]
    Thank you for--each of you for your service to our Nation. 
Today the subcommittee will review a broad portfolio of ground 
force equipment modernization programs that are associated with 
acquisition strategies covering over $40 billion in budget 
authority.
    Our focus today is to conduct oversight on how the budget 
requests for these modernization programs and acquisition 
strategies are aligned with the new National Defense Strategy 
and how they will begin to restore full-spectrum operational 
readiness.
    Last year, during a similar subcommittee hearing, General 
Murray testified that ``the Army has nearly half of the funding 
for modernization [and] equipment that it had just 8 years 
ago.'' And the Marine Corps said that between fiscal year 2012 
through year 2016, ``Marine Corps spending on ground 
procurement decreased by 48 percent in its base budget.''
    Essentially, the Army was both ``outranged, outgunned and 
outdated,'' end quote. And the Marine Corps was out of balance 
and requiring accelerated modernization to maintain [overmatch 
capabilities]. The National Defense Authorization Act [NDAA] 
for Fiscal Year 2018 and the balanced budget agreement for 
fiscal year 2018 and 2019 sets the necessary conditions to 
start the long process of repairing the damage resulting from 
years of combat operations compounded with deferred 
modernization.
    We all acknowledge this damage did not occur in a single 
year and it will take consistent levels of long-term increased 
investment to rebuild. The Army's modernization budget request 
for this year represents a 22 percent increase over last year's 
modernization budget request.
    I am pleased to see the Army is requesting enough funding 
to modernize one and a half armored brigade combat teams 
[ABCTs] as opposed to last year's plan to modernize only half 
of the requirements for one complete ABCT.
    The Marine Corps procurement request for ground equipment 
this year is $2.9 billion which if enacted would be 80 percent 
increase over last year's budget request of $1.6 billion.
    So, it does appear that the Army and Marine Corps are 
taking the necessary steps to accelerate modernization and 
mitigate existing capacity shortfalls and capability gaps.
    For example, the Army has identified six modernization 
priorities that include long-range precision fires, next-
generation combat vehicles [NGCVs], future vertical lift, Army 
network, air and missile defense, and soldier lethality. To 
help streamline procurement of these capabilities, I understand 
the Army has also established eight cross-functional team pilot 
programs to expedite the requirements process and accelerate 
these priorities.
    The subcommittee expects to hear how the fiscal year 2019 
request is addressing these modernization priorities and better 
understand program schedules and fielding timelines that will 
enable acceleration of these capabilities to the soldier.
    As a follow-up to the subcommittee's hearing from last 
September on Army tactical network modernization, we expect our 
witnesses to provide additional details and justifications 
underpinning this new strategy and ask how the fiscal year 2019 
request enables it.
    The National Defense Authorization Act for Fiscal Year 2018 
also directed the Army to develop a long-term modernization 
strategy. Today is a good opportunity for the witnesses to 
provide us with an update on where the Army is with developing 
this strategy.
    From a Marine Corps perspective, this year and next will 
represent critical milestones for the amphibious combat vehicle 
[ACV] program, the CH-53K heavy lift helicopter program, as 
well as accelerated ground-based air defense initiatives. We 
expect to receive updates on all of these issues today.
    In summary, we cannot dig ourselves out of this readiness 
and modernization hole in just a couple of years or NDAA 
cycles. I want to again place emphasis on what I said at last 
week's committee hearing: we are experiencing a crisis in 
military readiness.
    Over the last 3\1/2\ weeks, we have witnessed a series of 
aviation accidents where 16 service members have tragically 
lost their lives. Many of these tragic events are a result of 
lack of training hours due to constrained resources and/or the 
current state of aging equipment, all of which resulted from 
years of underfunding our military and clearly shows the 
magnitude of the problem we are all dealing with.
    This increase in modernization funding is absolutely 
required to maintain our competitive advantage against 
strategic competitors and improve overall readiness. However, 
with the increased funding comes additional responsibility. If 
we are to sustain higher topline defense budgets, we need to be 
assured that the military services and the industrial base can 
execute the funds that Congress has authorizes and 
appropriates.
    The bottom line is, we have to get this right and we have 
to do it now.
    Before I begin, I would like to recognize my colleague and 
good friend from Massachusetts, Ms. Niki Tsongas, for any 
comments she would like to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon.
    I would like to thank our witnesses for being here today to 
discuss Army and Marine Corps modernization budgets for fiscal 
year 2019. Good to have you with us.
    Based on an initial review of the budget request, both the 
Army and Marine Corps appear to have received significant 
funding increases in most areas. This has enabled in several 
cases both services to accelerate procurement of needed items, 
hopefully providing stability while also leading to lower costs 
through buying in bulk.
    For example, the Army has increased its procurements of 
armored combat vehicles of several types to approximately one 
and a half brigades per year, a dramatic increase from the half 
a brigade per year or less of recent budgets.
    The Marine Corps has been able to simultaneously buy more 
Joint Light Tactical Vehicles [JLTVs] while also pursuing 
healthy production rates of other vehicle upgrade programs.
    As our witnesses will recall, this subcommittee had a 
hearing last year focused on the Army's new plans in the area 
of communications networks and associated programs. At the 
time, I was very concerned that the Army might be making hasty 
decisions regarding eliminating current programs in favor of 
chasing new and potentially unproven technology.
    Now, after reviewing the Army's updated budget request in 
detail, I am cautiously optimistic that the Army is pursuing a 
more conservative plan that realigns some funding for current 
effort, but maintains or even expands funding for the majority 
of programs.
    The Army also plans to do a significant amount of 
experiments and prototype efforts to explore new technologies. 
These efforts are intended to inform a new tactical network for 
the future. Furthermore, the Army intends to maintain 
competition in most of its radio programs, which is good to 
see.
    Finally, there is one major question mark and that regards 
the path forward for providing better on-the-move 
communications capability to armored brigade combat teams. 
These units were going to receive WIN-T [Warfighter Information 
Network-Tactical] Increment [Inc] 2 for this purpose. But that 
aspect of the WIN-T program has been terminated. It remains to 
be seen what the Army's plans are for providing this 
capability. I hope to hear more today about the way forward.
    With that, Mr. Chairman, I yield back and I look forward to 
hearing from our witnesses.
    Mr. Turner. Thank you.
    I understand General Murray will provide opening remarks 
for the Army followed by General Walsh who will provide opening 
remarks for the Marine Corps. Without objections, the 
witnesses' prepared statements will be included in the record.
    General Murray, please begin.

STATEMENT OF LTG JOHN M. MURRAY, USA, DEPUTY CHIEF OF STAFF, G-
8, OFFICE OF THE U.S. ARMY DEPUTY CHIEF OF STAFF; AND LTG PAUL 
 OSTROWSKI, USA, MILITARY DEPUTY TO THE ASSISTANT SECRETARY OF 
       THE ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY

    General Murray. Thank you, sir. Chairman Turner--that is a 
nice short title, sir--Ranking Member Tsongas, distinguished 
members of the subcommittee, on behalf of our Army Secretary, 
the Honorable Mark Esper, and our Chief of Staff, General Mark 
Milley, General Ostrowski and I look forward to discussing Army 
modernization with you.
    Last year, I told you that we were approaching an 
inflection point; this year I would tell you that based upon 
everything you have just talked about, we are at an inflection 
point. We can no longer afford to choose between near-term 
readiness and modernization, and, specific to modernization, we 
can no longer afford to choose between improving existing 
systems and developing new ones. We must be able to do both, 
and I think you will see some of that in the 2019 budget and 
then specifically when we bring the 2020 budget across in about 
a year, you will see that.
    The Army's focus on the demands of ongoing campaigns 
combined with constrained resources and an industrial age 
organizational model have slowed, deferred, and in some cases 
halted the development of new capabilities. Meanwhile, our 
adversaries have, or are quickly attaining, a competitive 
advantage.
    Building on the fiscal year 2018 President's budget, we 
believe the FY 2019 budget request aligns with the National 
Defense Strategy, continues to reverse the downward trend that 
has stifled Army modernization, and serves as an important step 
toward expanding and maintaining overmatch.
    However, we must stress that a major increase in 
modernization this year will not in itself reverse the trend. 
We must have sustained, predictable, and adequate funding over 
the long term to allow us to develop an effective plan to 
reduce future risk while making the most effective use of the 
valuable resources we are entrusted with.
    In fiscal year 2019, we plan to selectively upgrade the 
equipment that is critical to near-term readiness and focus our 
science and technology and our research, development, test, and 
evaluation [RDT&E] funding on the six Army modernization 
priorities, those areas crucial to combat which have eroded in 
the restricted budget environment.
    This includes as you mentioned, Chairman, long-range 
precision fires, next-generation combat vehicle, future 
vertical lift, the network, air and missile defense, and 
soldier lethality. The American people expect their Army to win 
and meeting this expectation requires the Army to maintain 
overmatch against the near-peer threat.
    We urge Congress to provide fiscal stability so we can 
maintain our current warfighting readiness while simultaneously 
building a more modern, more capable, and more lethal force for 
the future.
    I would like to thank you and the entire committee for your 
unwavering support of the men and women of the United States 
Army, our Army civilians, and our Army families. Thank you and 
we look forward to your questions.
    [The joint prepared statement of General Murray and General 
Ostrowski can be found in the Appendix on page 32.]
    Mr. Turner. Thank you.
    General Walsh.

 STATEMENT OF LTGEN ROBERT S. WALSH, USMC, COMMANDING GENERAL, 
MARINE CORPS COMBAT DEVELOPMENT COMMAND, AND DEPUTY COMMANDANT, 
 COMBAT DEVELOPMENT AND INTEGRATION, HEADQUARTERS, U.S. MARINE 
   CORPS; AND BGEN JOSEPH SHRADER, USMC, COMMANDING GENERAL, 
                  MARINE CORPS SYSTEMS COMMAND

    General Walsh. Thank you, Chairman Turner, Ranking Member 
Tsongas, distinguished members of the subcommittee, for the 
opportunity to testify before you today with my teammates, 
General Murray, General Ostrowski, and also my partner, General 
Shrader.
    The Marine Corps ability to serve as our Nation's crisis 
response force is due largely in part to this subcommittee's 
continuing strong support and we appreciate that on behalf of 
all the Marines.
    Additionally, the Bipartisan Budget Act is going to go a 
long way to give us the stability we really need to be able to 
continue to develop the capabilities we have. Across the Marine 
Corps Combat Development Command, we have got over 18,000 men 
and women sailors, Marines, civilians that are operating as the 
capability developers for the Marine Corps and integrating this 
across the Marine force.
    Over the past year, the Marine Corps has been focused on 
deterring conflict by providing combined arms teams to theaters 
either already in crisis or at the risk of crisis to meet the 
Congress' mandate to be ``ready to suppress or contain 
international disturbances short of large-scale war.''
    We operate--you talked about the National Defense 
Strategy--within three of the four areas described in the 
National Defense Strategy of the contact, blunt, and surge 
forces. Our forward-deployed Marines and sailors operate daily 
as part of that contact layer.
    Today, they are vulnerable to--they are vulnerable to 
attacks in ways we haven't seen in decades. To operate within 
the contact and blunt layers, Marines foster--need to foster 
the lethal combat forces to be a credible deterrence force.
    During the last several budget cycles, we have been focused 
heavily on improving readiness to improve the force and 
increase our ability, but with the stability that you have 
given the budget, with a 7 percent increase in the total 
obligating authority with the Marine Corps, we have been able 
to push money into our modernization accounts at a rate of 32 
percent. This increase in modernization spending is a signal, 
it is a sense of urgency that we will be prepared to address 
the threats in the National Defense Strategy.
    Like the Army, in the Marine Corps 2019 budget we aligned 
ourselves with five priorities: information warfare, long-range 
precision fires, air defense, command and control in a degraded 
environment, and protective mobility and enhanced maneuver 
along with the Secretary of Defense direction to increase 
lethality, resilience, agility, and build a flexible, dynamic 
force.
    Additionally, I would like to emphasize to this 
subcommittee our close coordination and in many cases full 
alignment with the United States Army and their programs. Our 
work with the Army provides more efficient use of taxpayer 
dollars and ensures the end product provides the best 
capability to our Marines, soldiers, and the operating forces.
    Thank you for allowing General Shrader and I to testify 
before you today.
    [The joint prepared statement of General Walsh and General 
Shrader can be found in the Appendix on page 43.]
    Mr. Turner. Thank you, gentlemen. I have a couple of 
questions before I pass it on to my ranking member. General 
Murray, thank you for accompanying me when we visited the 
Holston Army Ammunition Plant, that was very illuminating, got 
to get a firsthand view of both the state of the facilities, 
the demand issues, and production. Holston and Radford are both 
government-owned contractor-operated facilities and both are in 
the process of expanding their production capability of 
critical materials needed for ramping up production of high-
demand munitions.
    I would like for you to update us on the facilities, where 
they are at expanding production, any additional information 
you would like to give us. You gave us an effective 
understanding of the issues when we were there together at 
Holston. And in your opinion, are there ways to accelerate 
these projects? I would like to also know what near-term 
actions are being considered, the things that we need to be 
considering as we put the NDAA together and, I know, are you 
considering stockpiling TNT [explosive]?
    General Murray. Yes, Mr. Chairman, thank you for that 
question. As you know at Holston, in 2018, it is really a 
multiyear effort, so it really goes even before fiscal year 
2018. But in 2018, we put $105 million and then $100 million in 
2019 to expand the capacity. That is about a 6 million pound 
increase in RDX [explosive] and about a 2 million pound 
increase in IMX [explosive].
    And that work continues. It is probably not any different 
than the schedule we showed you when we were down there. We 
have looked for opportunities to accelerate and taken those 
opportunities where we could, but as you know it is--until it 
becomes an insensitive munition, it is in fact a sensitive 
munition.
    So chances for acceleration are probably not great, but we 
remain on track and we have looked at the issue of storing TNT 
and we continue to explore that option. The demand for the 
insensitive munitions in theater right now is dropping 
slightly, so we have been able to catch up on some of the 
backlog, but we will continue to look for opportunities to 
expand the use of TNT, and then also add additional investments 
in those two critical facilities.
    Mr. Turner. General Walsh, we are aware that the Marine 
ground units are almost wholly without an effective organic air 
defense system. We are also aware on the subcommittee that the 
Marine Corps has plans to develop a family of systems that can 
develop--excuse me--that can defend against airborne threats.
    Can you please update on the Marine Corps plans and how do 
these coordinate with other service branches?
    General Walsh. Thank you, Chairman. We have got really what 
I would say is a two-phased approach to this. In near term, we 
had been looking at the counter-UAS [unmanned aerial system] 
capabilities, but now with the National Defense Strategy to 
increase that, we have kind of looked at longer range 
capabilities. So within the--the near term, we have been 
developing on--as a light capability on our MRZRs which are our 
ATV [all-terrain vehicle] capability and also on the M-ATV 
[mine-resistant ambush protected ATV] that we have.
    And on that capability, we have got integrating Stinger 
missiles for rotary wing and fixed wing, a counter-UAS Coyote 
capability, an EW [electronic warfare] capability we call Modi, 
and also integrating a laser capability that we are working 
very closely with the Army on--with the counter-laser weapon 
system along with the sensors that go with that.
    That is the near-term capability and it is kind of a spiral 
ability that we are going to integrate into the JLTV that 
goes--as it goes forward. And as that goes forward we are 
working very closely with the Army on a longer range 
capability.
    In the interim we also have $4.5 million that we have got 
in 2018 that we are working to develop and integrate a COTS 
[commercial off-the-shelf] system that we could demonstrate 
near term as we develop more money into the future that we have 
got for R&D [research and development] with the Army to 
integrate in with their IFPC [Indirect Fire Protection 
Capability] Block 2. And I will ask General Shrader if he would 
like to add anything from the acquisition side.
    General Shrader. Sir, I would just echo really the work 
that we have done on the lightweight system that--that General 
Walsh talked about, we call it the--the Lightweight Marine Air 
Defense System that we would put on the RZR. We have--we have 
to date fielded 14 of those within a 12-month period from 
identifying the requirement to fielding. So we are happy with 
that. We want to continue on that effort.
    And that--on that vehicle, it is two vehicles where you 
have a command and control vehicle and then you have another 
vehicle that has the radar and the--the capability to compute 
the firing data and then engage with--we will just say EW Modi 
system. And we have done that in a 14-month period and we--we 
use that as the base and then spiral, what General Walsh said, 
spiral more capability into that. Not only that system, but 
also into the M-ATV and the JLTV as that comes onboard and also 
working with the laser, the 2-kilowatt laser. That is--that is 
all I would add, sir.
    Mr. Turner. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. Since the start of 
the wars in Iraq and Afghanistan, DOD [Department of Defense] 
developed various systems for quickly addressing urgent needs 
for equipment. These efforts understandably started as urgent 
needs directly tied to ongoing combat operations.
    Recently, however, the use of the term ``urgent'' has 
migrated to other more routine requirements often tied to need 
statements from Army or Marine Corps units that in many cases 
are not deploying into a combat zone in the near future. Of 
course, the entire Army and Marine Corps exist to be prepared 
for possible combat in the future, so expansion of the label of 
urgent--urgent need to include anything plausibly related to a 
future combat operation could obviously include almost 
anything.
    While I support as many on this--we all in this committee 
do, support filling such urgent needs for units in combat or 
about to deploy to combat, I would like to explore what looks 
like an expanding definition of urgent need.
    So with that, General Murray and General Walsh, can you 
talk about and explain how the Army and Marine Corps currently 
categorize urgent needs? And can you also explain in detail 
where such urgent need statements come from and how are they 
reviewed? So I will start with you, General Murray.
    General Murray. Yes, ma'am, thank you. So it is--it is hard 
to know when you are going to deploy into combat, so we have 
had predictability over the last 16 years, I understand that 
with path charts and BCTs can prepare the year out. But it is 
hard to predict the world's situation. So most of the urgent 
requirements that we are seeing are coming from division 
commanders, they are--they are funneled up through corps 
commanders, prioritized, and racked and stacked if you will. 
They go to the forces command commander if they are within 
FORSCOM [U.S. Army Forces Command]. If they are within the 
Pacific they go through the four-star in the Pacific. If they 
are in Europe, they go through the three-star Army commander in 
Europe.
    And then they come back to the building. The G3 [operations 
staff] racks and stacks them from an Army-wide priority look. 
We have lawyers look at them to make sure that there is a 
compelling reason why it is an urgent requirement and normally 
either the vice or the chief are briefed on them that this is 
an emerging requirement, this is the way we would like to do.
    Ms. Tsongas. And what would the standard be for that, that 
the lawyer is--is employing to decide that?
    General Murray. It is just probably no--there is probably 
no piece of law I can point to and say. Now, there are Army 
regulations and there are DODIs, DOD instructions, that talk 
about urgent and compelling, but they don't--they don't point 
to a specific, it has to be A, B, C, D, and E to be qualified 
as urgent.
    So it is based up--it is really based upon the world 
situation. I mean what is going on in--in Korea at this 
particular point in time has--has led to most of the DRs, 
directed requirements, here recently, and then it is always for 
a limited quantity and it is not an acquisition strategy. It is 
just naming the requirements for the piece of equipment that we 
are after if it doesn't currently already exist in our 
inventory.
    Ms. Tsongas. Is there any process in place to make sure 
that these decisions aren't inappropriately influenced by non-
government actors such as industry representatives?
    General Murray. For my perspective, yes, because the 
directed requirements that I have seen and I have personally 
signed do not--it is a requirements document, that this is the 
requirements for a capability that we would like--the 
acquisition community to either find, buy, or produce. And that 
is about the limit. Now, I do put into some of those, you know, 
the--the timeframes we are talking about because urgent implies 
fairly rapidly, but I have never seen or signed a directed 
requirement that specifies an acquisition strategy.
    And from my personal experience, from my perspective, there 
has been no contractor influence on the solution.
    Ms. Tsongas. General Walsh.
    General Walsh. Congresswoman Tsongas, so I am just going 
to--I think our process is parallel very much with what General 
Murray said. What I will say is our urgent requests come in 
from our operating forces the same way, they come into our 
capability development directorate down there at Quantico. We 
assess them pretty much the same way. We also have deliberate 
operational needs that come in from the operating force 
commanders. So the ones that are urgent are coming in generally 
from the operating forces that are in combat areas that have 
urgent needs, maybe loss of life or capability in that sense.
    They come in, we rack and stack them, and then we send them 
up to our Marine Corps--Marine Requirements Oversight Council 
that is up with all the deputy commandants and the Assistant 
Commandant of the Marine Corps and eventually up to the 
Commandant. So that is the process we go through.
    We have been doing this a lot as you well know throughout 
Iraq and Afghanistan, so we have gotten fairly good at this. I 
think where--where the questions start to lie I think with 
Congress is the desire to go fast is starting to maybe 
sometimes look like it is getting outside the operational needs 
process in, for example, where we developed our rapid 
capabilities office that we have developed and all the services 
have developed those.
    And so now we are spinning technology out fairly quickly at 
the lower end, not major acquisition development programs, but 
smaller. And I think the key part with that is trying to work 
with Congress and I think in this last year we have been very 
successful to work with Congress to show the areas that we have 
been working in that we would be wanting to demonstrate 
capabilities and experiment with that, and then continue to 
come back and engage with Congress on what actual programs that 
we are using to experiment with to be able to try to rapidly 
prototype those capabilities.
    So I think some of it looks like this rapid capability 
development is merging into the urgent operational needs 
process, but we keep these completely separate from a process 
standpoint.
    Ms. Tsongas. And are you comfortable that these decisions 
aren't being inappropriately influenced by, as I said, non-
government actors such as industry representatives? And what do 
you have in place to be assured of that?
    General Walsh. Yes, Congresswoman, I think--to be honest 
with you, I don't see us getting involved with the industry at 
that point when those capabilities come in. They come in, we 
look at what the best capability would be out there. We do do 
some demonstration capabilities when we try to bring in vendors 
to kind of see what opportunities are out there, but we kind of 
look at it from more of a capability standpoint than looking at 
a specific vendor's capability.
    And let me ask if General Shrader wants to--because he 
works very closely with me on this process.
    General Shrader. Ma'am, I would say that there is, on the 
acquisition side, the material development side, there is a 
process that we have in place where a vendor can introduce 
something and it is a non, unsolicited proposal type of process 
that we have. But as far as industry partners trying to come in 
and influence, try to generate an urgent need, no, ma'am, I 
don't--I am not aware of anything like that going on, ma'am.
    Ms. Tsongas. Thank you. Thank you, Mr. Chairman.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I want to thank our 
guests for being here today. And I am going to start with the 
Army and I want to talk about the Strykers. And I am big fan of 
the Strykers. I notice I guess the request is what, for three 
Stryker upgrades, is that correct right now?
    General Murray. As it stands right now, yes, sir.
    Mr. Cook. And we are pretty well straightened down on the--
the V-hull even though it is heavy and everything else. The 
folks on the Strykers over in Europe, they--they seem to really 
like that a lot, at least that was what came back to me. Any--
any problems with that other than the weight?
    General Murray. No, sir. So the Europe unit, the 2d Stryker 
Cavalry Regiment is in fact flat-bottom Stryker. What I think 
you are referring to is the 30-millimeter cannon.
    Mr. Cook. No, no, I am talking about the hull.
    General Murray. Yes, sir, those--those are all----
    Mr. Cook. No, no, the 30-millimeter I am happy with, no 
problem at all. But--so I am more worried about, you know, 
mines and things of that nature. The other thing I--when I was 
over there and we were at Grafenwoehr, a place where--you know 
where I am talking about, and we are talking--they had four or 
five different variants. We had a CODEL [congressional 
delegation] there and they had the different systems.
    And I guess I didn't realize that--are they going to change 
that with the mortar or some of the variants in the future or 
have they pretty well standardized what is going to be 
available to that? And I don't have it all in front of me, but 
I was pretty impressed with the versatility of that weapon 
system.
    General Murray. Yes, sir. I think the actual number is nine 
different variants and I may be wrong, but it is--it is more 
than five. But in terms of the--the numbers of variants on the 
Stryker chassis, I think we stabilized it. As a matter of fact, 
we are adding to it, so that will be the platform for our 
mobile SHORAD [short-range air defense] solution.
    Mr. Cook. And we are going forward with the reactive armor, 
the variations of the Trophy systems? I think it is my 
understanding both services are--are committed to that talking. 
We are not going to--we are OK on that because I am a big 
supporter of that, by the way.
    General Murray. So, Trophy, yes. Between 2018 and 2019, it 
is about four brigades' worth that will go on the Abrams tank. 
We have finished the characterization of Iron Curtain which we 
were trying on the Stryker. There was a decision to come on 
that this summer and then we're in the process of 
characterizing Iron Fist on the Bradley right now down at 
Redstone Arsenal.
    Mr. Cook. Yes. Did--did you happen to look at the system 
that the Dutch are using for their armored personnel carriers? 
It is very--the big thing about it is it is very lightweight 
supposedly. I haven't seen it. I did want to try and get over 
there and see what it looked like, but read a little bit on it, 
but not much.
    General Murray. I am not familiar with what the Dutch are 
using. We have looked at the German system, I believe it is 
called ADS [Active Defence System]. So we have had some folks 
in Germany to look at it. It is a very similar concept, 
different--different design, but a very similar concept to an 
intercept very close to the vehicle as the Artis system called 
Iron Curtain.
    Mr. Cook. Okay, I am going to get off script a little bit 
and I want to ask you about line charges. In fact, the last 
time I saw line charges about a year ago out at Fort Irwin and 
I got to tell you it is remarkably similar to the same line 
charge in terms of 51 years ago in 1967 in Vietnam where it 
shoots out again, when we did it, it was from an AMTRAC 
[assault amphibious vehicle]. And everybody holds their breath 
and of course it didn't work.
    And it just--I have always been sketchy about that. I think 
everybody is sketchy about it because of the dangers involved 
with it, particularly to the ground troops, you know, when it 
ruptures. Is there anything to improve that, because this is 
the enemy that we are probably going to encounter with 
minefields or mines or something like that. And to be able to 
do something expeditiously to blow up whatever it is, it just 
seemed almost archaic and that was--I don't know, maybe anybody 
can answer that?
    General Murray. Yes, sir. It is, probably is; there are 
only so many ways you can pack C4 [explosive] into a tube. But 
I--what I can tell you is I know of no requirements being 
worked in the Army system to replace the MICLIC [Mine Clearing 
Line Charge], the mine charge.
    Mr. Cook. Yeah. I asked that question and he said no, and I 
was sarcastic and I said, we are going to use the same one that 
I used 51 years ago. And they said, yeah, pretty much so. 
Anyway, I yield back.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today, most especially thank you 
for your service to the country. So I understand that, and we 
have touched this with the chairman's question, but I 
understand that one of the Army's ongoing priorities is to 
develop systems in order to counter short-range air defense 
threats such as drones and in so doing has been experimenting 
with high energy lasers. As a proponent of directed energy 
technologies I am encouraged to hear that the Army is pursuing 
these advanced technology solutions such as the mobile 
experimental high energy laser, or MEHEL, to supplement its 
current ground force capabilities.
    And so can you discuss your--your progress on these efforts 
so far, as well as how you are training soldiers to actually 
operate the systems?
    General Ostrowski. Sir, I will just tell you that in 
addition to the one that you mentioned, we are also very much 
engaged in 2018 with respect to a technology maturity 
initiative. This is taking a Stryker vehicle and putting a 50-
kilowatt laser on that platform in order to get to a TR 
[technology readiness] level 7 by the first quarter of 2021. So 
it will be integral on both the--the IFPC program in terms of a 
Block 2 IFPC, as well as mobile SHORAD. So the intent is to 
bring that on as fast as we possibly can because as you know it 
is cheaper per round in terms of a shot in order to use that 
particular laser technology against both RAM [rocket, 
artillery, and mortar], as well as UAS threats.
    Mr. Langevin. And progress on the--the one I mentioned, the 
MEHEL laser, is that--that is different than the one that is on 
the Stryker, right?
    General Ostrowski. Can you repeat the question, sir?
    Mr. Langevin. Yes. I just want to know the mobile 
experimental high energy laser or the MEHEL, is that--that is 
not the same one you are putting on the Stryker, is it?
    General Ostrowski. Sir, I believe you are talking about the 
100-Kw [kilowatt] one as opposed to the one that we are putting 
on the Stryker which is a 50-kilowatt. Again, we moved from 2 
kilowatts to 5 kilowatts as we continue to improve the maturity 
of the technology. And so the next one for us right now in 
terms of the Stryker based is the 50-kilowatt laser.
    Mr. Langevin. Okay, thank you, gentlemen. So with further 
developments in artificial intelligence [AI], would you agree 
that using AI to help control swarms of drones during offensive 
operations or to provide logistics to forward units much like 
commercial companies that are experimenting within the United 
States has potential to be game changing? And how are you 
incorporating these ideas into your modernization strategy?
    General Walsh. I would say yes to all, sir, and I would say 
that it is probably fundamentally the technology that has the--
the chance to be most--to changing the character of war as we 
move forward. So yes, we are very interested in artificial 
intelligence incorporation into weapon systems. Of course there 
are policy issues that go along with that that we will have to 
deal with as that--as that technology develops.
    We are very closely watching what is going on in industry 
and the other services. We are trying to capitalize off 
investments that OSD [Office of the Secretary of Defense] is 
making and the other services are making. We see this not 
necessarily as the--as the right place to invest a tremendous 
amount of money right now. We think this is a--this is a 
technology that industry will develop much faster than we will, 
and the opportunity to sprint will come and we just need to be 
in a position to sprint to catch up with industry when it is 
mature.
    Mr. Langevin. Thank you. And--and how are both your 
services building cyber and electronic warfare resiliency into 
your modernization efforts to ensure our new platforms and 
systems will continue to function in a contested environment?
    General Ostrowski. Sir, I will just tell you that for every 
one of our programs and during our testing we go up against 
cyber threats, as well as EW, and that is across the board. Not 
only the systems that we are currently in the process of 
developing, but also systems that we already have in the field 
such as the Abrams tank for instance, or Apache helicopters, 
not only from an outsider threat, but also from an insider 
threat.
    We are spending a lot of money on a lot of initiatives. We 
have red teams that go at these particular systems whether they 
are out at NTC [National Training Center] or other places in 
order to ensure that whatever we are doing across the board, we 
are consistent with the EW threat and cyber threat on both--
both our ground, as well as our air platforms, as well as our 
IT [information technology] efforts.
    Mr. Langevin. Thank you. General Walsh.
    General Walsh. If I could, Congressman. When we wrote our 
Marine Corps Operating Concept, the--one of the priorities we 
saw was being able to operate in the information warfare area. 
And from that we did our Marine Corps Force 2025, it was about 
a year-and-a-half-long force structure review. And what came 
out of that was developing our MEF [Marine expeditionary force] 
information groups. Within those information groups they are 
focused on cyber, EW, signals intelligence, information 
operations.
    Just now this summer we are standing up defensive counter 
operations cyber companies that are down inside the MIG [MEF 
information group], so we are now pushing that capability all 
the way down in small detachments, all the way down to the 
company level. So we are pushing the capability down in 
structure first with the capabilities and material solutions, 
some of which we have in a lot of ways in the electronic 
warfare, we have had that in our radio battalions and also in 
our electronic warfare Prowler squadrons, our EA-6Bs, but 
pushing that capability down to the lowest level, the first 
thing was get the structure in place and then the material 
solutions will follow.
    Mr. Langevin. Thank you all. I would say this is important 
because as much as we are making progress on these 
technologies, our enemies and adversaries have invested heavily 
in being able to disrupt our activities in a contested 
environment, and what we can do to build resiliency, then the 
better off we are. So thank you, gentlemen, for your testimony 
and again, thank you for your service. And I yield back.
    Mr. Turner. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us. Thanks again for your service.
    General Ostrowski, I wanted to touch base on where the 
modern operational systems for the soldier are going. We know 
that a soldier can carry about a third of their body weight and 
as it gets higher, it affects their mobility.
    We know sometimes they can carry as much as 100 pounds of 
gear which does impact their ability to carry out the mission. 
I do understand though that there is some new technology out 
there, the squad multipurpose equipment transport, better known 
as SMET, that is able to carry equipment, munitions, help in 
that, even carry a wounded soldier. So an addition to that 
element at the squad level for tactical flexibility and 
additional capacity.
    We all know the benefits of that to me are pretty clear. 
The Chief of Staff of the Army placed some emphasis and said, 
listen, we are going to use more of these ground unmanned 
robotic systems to achieve mission.
    Give me a perspective, are there any plans in place to 
expedite the acquisition of a system like the SMET? Are there 
things that maybe you could do in the technology demonstration 
timelines to compress those to get more quickly to acquisition? 
Give us your perspective on how that's coming together.
    General Ostrowski. Yes, sir. I will tell you this is 
basically a modern acquisition success story in terms of the 
way we are doing business today. Number one, the ability to go 
out with an other transactional authority [OTA] announcement to 
an industry that normally would never participate in Department 
of Defense type initiatives.
    So going out to an industry that typically has not had any 
kind of a contact with us and saying we need your help. The 
OTAs allow us to do this. That is what we did in July of last 
year. And we had numerous candidates bring in systems as well 
as proposals.
    We downselected to four of those systems. We are currently 
at that point right now. We are waiting on the money to come in 
from the 2018 budget, so thank you very much for getting that 
through. And so now, as a new start, we can begin that work. 
So, the bottom line is going forward, we will have another--the 
intent is to buy 20 systems per vendor of the four vendors that 
we downselected to.
    We will then put those in the field with soldiers to gain 
soldier feedback. And by first quarter 2019, so at the end of 
this calendar year, the intent is to downselect to one.
    Mr. Wittman. Oh, good.
    General Ostrowski. From there, we are going to buy 
approximately 60 systems. And we are going to put those out 
either at either Fort--I would say--hang on, just half a 
second--yes, bottom line is we are going to put that out at 
Fort Drumm or Fort Campbell.
    Mr. Wittman. Yes, yes.
    General Ostrowski. And the intent there is to have those in 
the field for approximately one year during which time soldiers 
will be able to get feedback on them. We will get feedback on 
them and then have the opportunity to then make a downselect 
decision to whether or not it is good enough as it is or 
whether we want to improve it with intention of award right 
after that.
    So, again, the opportunity to go faster and get the 
capability that we know soldiers will want at the end of the 
day. And that is just the ground side. There is other 
opportunities as well through aerial vehicles and the rest that 
we are looking into because it is all about reducing soldier 
load.
    Mr. Wittman. Okay.
    General Murray. Sir, if I could add.
    Mr. Wittman. Sure. Yes.
    General Murray. Just really under--all right, just really 
quickly and I think the time--I agree with him, I think the 
timing is really part of the good-news story. So and this was 
in the case of--for developmental activity, this is was a 
directed requirement, because we knew what we wanted. We knew 
what was available industrywise from technology standpoint.
    So instead of going through a 5-year requirements process, 
we just wrote the requirement, got it out to industry, and 16 
months later, 6 months of that being the CR [continuing 
resolution] that we couldn't get started.
    Mr. Wittman. Yes.
    General Murray. I mean we are ready to field capability to 
our soldiers right now.
    Mr. Wittman. That is great. That is great.
    Lieutenant General Walsh, I wanted to talk a little bit 
about the modernization efforts in the Marine Corps. About 29 
percent of the resources for modernization are being utilized 
by the ground combat and tactical vehicle strategy. And the 
investment priority there is with the ACV.
    And we know that you are at Milestone C now looking for a 
downselect to be able to get that vehicle operationalized. So 
it looks like ACV is on the near horizon. As you know in the 
whole tactical back and forth about forceful entry, speed and 
surprise are important elements of that as you are looking at 
that.
    And we know that there are some technologies out there that 
allow for greater resolution in early detection of things that 
may be coming to shore. We know even groups, even non-state 
actors like Hezbollah now have pretty sophisticated radar-
guided missiles out there. So that all creates a little more of 
a challenge in the contested environment there. There is always 
tradeoffs as you--the Marine Corps has been through in looking 
at speed and capability with those vehicles and mobility, 
obviously on land. So how do you have the right combination of 
both?
    Are you concerned as you look at this right mixture of ACV 
range and speed within that highly contested environment, do 
you think you have the mix right? And how have the ACV 
prototypes performed so far in this particular environment? Are 
you satisfied where things are when you get to the downselect?
    General Walsh. Thank you, Congressman. I will start with 
the last part of it is so far we have been very pleased with 
the two vendors in what we are getting out of those 
capabilities. The ACV 1.1 capability was supposed to be just a 
ship-to-shore capability from a threshold requirement. And we 
see the vendors, both vendors meeting the objective 
capabilities.
    So, in many ways they are exceeding what we already have in 
our AAV [amphibious assault vehicle] capabilities. Now, with 
the tradeoffs of the capabilities you talked about as you are 
well familiar with is trying to go fast. We weren't willing to 
trade off a lot of those capabilities to be able to be 
protected, maneuver, and have lethal firepower when we get 
ashore.
    So we have developed through a non-developmental program 
with the two vendors. We are looking forward to the Milestone C 
decision in June. But the larger part of your earlier question 
is what we have really been working on in this contested 
environment is we are going to have to operate differently.
    It is not all about AMTRACs on line coming ashore. It is 
much more into what you were just talking about, sensing the 
battle space, deception, jammers in that area. And we have been 
doing a lot of work in that area.
    Last year, we had our advanced naval technology experiment 
that was focused completely on ship-to-shore maneuver. And in 
that ship-to-shore maneuver, the majority of the first parts of 
the landing operations were all unmanned systems, whether they 
were in the air, on the surface, and under the surface.
    Many of the capabilities that we saw we learned from, as 
you are very familiar with the Naval Undersea Warfare Center up 
in Rhode Island. We got capabilities from them that now a lot 
of our reconnaissance forces that we have rapidly prototyped 
that we are now using for swarming hydrographic capabilities to 
be able to sense as we come ashore.
    So I think this unmanned area is going to take us into many 
different areas to be able to do deception, but the key part is 
not conducting operations the way we have in the past.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. The budget request is 
going to be an increase of over 82 percent for long-range 
precision fires capable of up to 400-kilometer shots. The 
development of such technology is critical as we build the 
next-generation conventional deterrence, especially when 
looking at Korea and Europe.
    What is the expected timeline for R&D and fielding of this 
technology to the best of your ability?
    General Ostrowski. Yes, sir. The bottom line is the 
precision strike missile which it is now being called as 
opposed to the long-range precision fires, is in OTA as well. 
So we have two competitors, both Lockheed Martin as well as 
Raytheon, that are competing for this.
    The first time we will have an opportunity to see where we 
are at is the fourth quarter of 2019 when each of the vendors 
will provide four missiles to us of which we will fire three. 
Depending on the results of that, again, where the intent is to 
fire those at max range, so the 499.
    Depending on the results of that we intend to expedite the 
delivery of the system much faster. Originally, it was 2025. We 
are thinking more like 2022. But it will all depend on the 
fourth quarter 2019, when we get the results of the test.
    Mr. Gallego. Anything to add, gentlemen?
    General Walsh. The only thing I would add on that, working 
very closely with the Army on how to increase longer range 
capabilities coming out of our HIMARS [High Mobility Artillery 
Rocket System] capability. But the other piece too is we have 
got about $20 million of RDT&E in 2019 to be able to look at 
how we can integrate a much quicker capability, commercial off-
the-shelf capability for an anti-ship missile capability that 
in the long term working very closely with the Army in 2020 and 
beyond in the long-range fires capability for anti-ship that is 
also capable of on-land capabilities.
    Mr. Gallego. Excellent. So to kind of latch on to that 
theme. I understand some of the testing for these systems will 
go on in Arizona, good choice, at the Yuma Proving Grounds. Is 
there adequate space to test the long-range shots both at Yuma 
and at White Sands Missile considering we are dealing with some 
rather long distances?
    General Murray. Yes, sir. There is more than sufficient 
range at both those locations to test this.
    Mr. Gallego. Okay. Let me move on into the tactical network 
modernization. The Army is requesting nearly $500 million in 
new--again, tactical network technology modification line. What 
is the intent of this line? And in other words what does it 
buy? What is it bringing us?
    General Murray. So you--thank you, sir. I believe you were 
briefed last fall on the network modernization. You were very 
familiar with the halt, the fix, and the pivot. So the network 
modernization modification line really does two things for us.
    Number one is that it is primarily focused on fix. So we 
have halted three specific programs, which you are very aware 
of and then the fix piece is to fix the current baseline. Our 
current baseline is WIN-T Inc 1b in some of the force fielded 
with WIN-T Inc 2 on-the-move capability.
    So it is to finish the fielding of the Inc 2 stuff that we 
have already purchased that will go on through 2018, so it is 
fielding the light gear to the light infantry units primarily. 
Cascade of heavier equipment to some Strykers and not all of 
them into the ABCTs is to accelerate the common platform we are 
going to use across all formations to include the ABCTs, the 
Joint Battle Command-P, the JBC-P.
    And then it is also to do some experimentation with the CFT 
[cross-functional team] looking at what we are calling the 
integrated tactical network. And I think the thing that is 
exciting about this is when we developed networks in the past, 
we start at the top and make it fit, small units, companies, 
platoons, battalions.
    And we are starting at the bottom and scaling up in this 
case. We are making sure it works at the platoon, company, 
battalion level. And right now, in 2018, if the money is made 
available, we intend to look at an IBCT [infantry brigade 
combat team] and ABCT and SBCT [Stryker brigade combat team] 
and do the scalability up.
    And this is mostly--it is almost solely modified commercial 
off-the-shelf gear or SOCOM [Special Operations Command] gear 
that has already been purchased and proven.
    Mr. Gallego. Let us go a little deeper. What are the plans 
in terms of when it comes to Stryker, are we talking--you said 
some Stryker, are we talking full brigades or what is the plan 
in terms of----
    General Murray. There is not enough of the light gear to go 
to every SBCT and--a Stryker brigade, we are peer fleeted and 
some of them will have all have a lighter gear, a few of them 
and that is one or two I believe, but I have to get back to you 
on that, will have the older, heavier gear just like the ABCTs 
do.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Gallego. Okay. I yield back.
    Mr. Turner. Thank you. Gentlemen, I am going to have to 
apologize, both my ranking member and I had conflicts to the 
end of this. I didn't want you to think that it was you. My 
ranking member had a memorial service for Member Slaughter. And 
I have a meeting with the chairman of the committee. So I am 
going to pass the gavel over to Mr. Banks and call on Mr. 
Brown. But I appreciate your testimony and your service.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I would like to ask the 
Army and probably General Ostrowski about the future of 
vertical lift. And future vertical lift, I know that it is I 
think number three on the priority list, the six priorities for 
Army modernization according to General Milley. Recently 
General Tate described the development in a way that the Army 
is going to spend more time kind of working through issues, 
identifying requirements during the prototype phase more so 
than in past fieldings and--or development, and so that this 
way when you get to the program of record, we are able to 
deliver an aircraft that is much more adaptable to the changing 
environment, future requirements, upgrades in technology, et 
cetera.
    If I have mischaracterized, please correct me, but the 
question is can you give us an update and what is the plan for 
rapid prototype development? And are there ways to accelerate 
the ongoing analysis of the alternatives that you are currently 
considering?
    General Ostrowski. Yes, sir. I would say that the tech 
demonstration I believe is what you are talking about right 
now. It's called the Joint Multi-Role. And, again, this is the 
way that we should be doing acquisition in terms of being able 
to inform our requirements.
    And we are having industry buy-in. So industries bought in 
both with respect to Boeing, as well as Sikorsky, and then Bell 
is a different partner. Each of these particular companies have 
come forward with their platforms to the tune of about $450 
million worth of spend in terms of industry to the Army's $90 
million per vendor in order to get at a demonstration of these 
technologies, whether it would be tiltrotor or whether it would 
be compound coaxial which each of these vendors are providing.
    The intent is to have those fly. We have had the Bell 
flying already. And it continues to fly with respect to its 
prototype or its experimental version. And then now, we are 
looking very forward to the summer as we get the Sikorsky-
Boeing's compound coaxial up in the air.
    From there, sir, the intent is to finish off our analysis 
of alternatives by the second quarter of 2019, which helps us 
further refine our requirements and determine what else is out 
there.
    And that allows us to then move into a TMRR, a tech 
maturity risk reduction, phase of the program in 2021. 
Depending on what we get and what we see from these two 
demonstrators, it allows us to make better decisions, better 
choices with respect to how far the technology really is. Are 
these experimental or are they more prototypes? We hope for the 
latter, but we are concerned that we might not get there in 
terms of that.
    So, again, they might be just experimental as opposed to 
prototypes. In conjunction with that we have to work with the 
Marines. We want to work with the Marines in terms of getting 
our capabilities sets. We need their money as they need ours in 
order to pull this together. Again, that is going to be 
requirements tradeoffs between the two services. So exciting 
program, the way we should be doing business.
    Mr. Brown. [inaudible] that you're experiencing with regard 
to your rotor-wing fleet. I didn't have the mic [microphone] 
on. Did you hear me?
    General Walsh. Yes, I did. On the rotary-wing side, I think 
the most challenging ones, we have actually been bringing in 
new programs with our Yankee Zulu on our H-1s. Obviously, we 
are still in the last of multiyear for our MV-22s.
    Probably the big challenge that we have got, exciting 
challenge is bringing in our CH-53 Kilo which is the largest, 
most capability to lift the most of any helicopter that is 
made. So that right now is in the systems development stage, 
transitioning those helos up to Pax River for further testing.
    But I think that is probably the most--the leading thing 
that we have got going, we continue to buy out the last 25 AH-1 
Zulus this year and 2019. Continue with the MV-22 as the Navy 
takes on the carrier onboard delivery. We are shifting some of 
that procurement over to them and then really the CH-53 Kilo is 
our large aircraft, bringing that in and trying to make sure 
that that program moves forward.
    Mr. Brown. Thank you. We like more work at Pax River in 
Maryland. Back to the Army, you may not be able to answer this 
in the time I have remaining. Futures Command, and I understand 
that there is currently no budget item specifically requested 
or allocated for Futures Command, which expects to be stood up 
by this summer or at least the initial phase. Are you going to 
reprogram money from other accounts to fund this command?
    General Murray. We are going to try, sir. And so it's the 
same thing with the CFTs, when you look at cross-functional 
teams, when you look at the funding for the CFTs and timing was 
very much against us on this. If you remember it was last 
October that the Army announced number one, Futures Command and 
number two, the eight cross-functional teams in support of the 
six Army modernization priorities.
    And it was December before the cross-functional teams' 
charters were approved and what it was they were going to work 
on. So this was last December. We turned in our budget on the 
second week of January.
    So we got into the 2019 budget what we possibly could. And 
we are really focused on the 2020 budget for both Futures 
Command, which will go FOC [full operational capability] in 
that budget, just an IOC [initial operational] capability in 
2019 and the cross-functional teams to get after it. And we 
were very much constrained by time with the 2019 budget.
    Mr. Brown. Thank you, Mr. Chairman. I yield back.
    Mr. Banks [presiding]. The gentleman's time has expired. I 
yield the next 5 minutes to myself.
    General Ostrowski and General Murray, I wonder if you can 
give us a quick status update on the Army's plan to replace the 
transmissions in the Bradley family vehicles and armored 
multipurpose vehicle programs.
    General Ostrowski. Yes, sir. The intent there with respect 
to your--you are talking about the Bradley A4.
    Mr. Banks. Yes.
    General Ostrowski. And again, as we make continual upgrades 
to the Bradley fleet of vehicles, the A3 being the last, which 
is to currently field the capability, those were suspension 
upgrades.
    And so, we are moving forward now. We have done the 
research and development and we are now in the process of 
negotiating the production contract for the upgraded A4 version 
of the Bradley.
    A4 Bradley has an upgraded transmission as well as engine, 
as well as additional electric power in order to run the 
systems that we continue to load on to the Bradley in terms of 
the overall electrical power piece.
    So, we are in the process of finishing off those 
negotiations with BAE [BAE Systems]. And the intent there is to 
award that contract in the very near future.
    Mr. Banks. Okay. Anything you would like to add?
    General Murray. No, sir. But I think you said, I mean, 
there is some confusion about a replacement transmission. Right 
now, I mean there has been no decisions on anything other than 
General Ostrowski just mentioned. The upgraded transmission we 
are working under the A4 contract.
    Mr. Banks. Okay. My next question is for both of you as 
well. I noticed that in the fiscal year 2019 budget there is a 
request for Humvee ambulance modernization funding for the 
second year in a row.
    However, there aren't any funds also requested for non-
armored Humvee modernization. So I wonder if you can comment on 
both of those and in your professional military opinion if that 
is the best way forward.
    General Murray. So, yes, sir. And thanks to Congress we 
have been very successful at upgrading this very specific 
version of our Humvee, the up-armored ambulance and thanks to 
the graciousness of Congress, the National Guard and the United 
States Army Reserve are complete with that modernization.
    We began a program last year. Congress added some money to 
it, do the Active Component, the Regular Army ambulance fleet 
that we're about 10 percent through and then we have asked more 
money in 2019. About 6 months ago, we had the decision meeting 
on the upgrading the Humvee fleet.
    In my mind, that is not a question of will we upgrade the 
Humvee fleet, it is just a question when because as you know 
the JLTV fleet only replaces about 50 percent of our light 
tactical vehicle needs. So Humvees will be with us for a long 
time into the future.
    We talked about upgrading, starting with the unarmored 
Humvee fleet first because that is the oldest fleet, that is 
about 9 years of fleet age. We like to keep it below about 12 
years, so we are approaching that.
    That decision will go to the chief sometime within the next 
2 to 3 months and then we expect to quickly follow that on with 
what we want to do with the up-armored, the armored fleet 
Humvees. And then, again, in my opinion it is going to be just 
a question of when, not necessarily if.
    General Ostrowski. Sir, I will just add that we are poised 
from an industrial base perspective, with our public/private 
partnership with AM General as well as Red River in Rock Island 
in order to press forward should the decision be made to get 
after the recap [recapitalization] of the Humvees.
    Mr. Banks. Okay. Thank you. My last question for all four 
of you, could you maybe address or talk for a moment about how 
you are addressing the systematic challenges of the 
redistribution of equipment overcoming the growing capability 
gap between the Active Component and Reserve Component?
    You talked a moment ago about the Reserve Component in my 
previous question, but as the Reserve Component becomes--units 
become more of a pit stop for divestiture, what are we doing to 
address those types of issues if that make sense?
    General Murray. Yes, I think there is really two pieces of 
that, sir, if I could. So equipment on hand is the amount of 
equipment, actually there are three. The equipment on hand is 
the equipment they have. We call it the UH rating.
    We have made great strides during the course of the war to 
where the National Guard and United States Army Reserve are 
almost at parity with the Regular Army in terms of the 
equipment that they need on hand.
    The piece as you refer it, and there is also the dual-use 
equipment. So in their State mission and their Federal mission, 
we are in very good shape on that. Where the U.S. Army Reserve 
and the Army National Guard are lagging somewhat, although we 
have started--we have closed this gap over the last 10 years--
is in the most modern equipment available. And that is 
primarily because we have focused our most modern equipment on 
the next deploying units.
    So regardless of component, whether it was a Reserve unit, 
a Guard unit or an Active Component unit, we put the equipment 
in the hands of that deploying unit, which often got left in 
theater for follow-on forces and become theater-provided 
equipment which has set us back a bit. But we are very focused 
on closing that gap to modernize equipment and there are three 
components.
    Mr. Banks. I have 7 seconds left. Would anybody from the 
Marines like to comment on that?
    General Walsh. Very quick. Congressman, I would say we look 
at it from a total force perspective. We deploy our Reserve 
units all the time to fill for Active units, so we try to 
maintain the same capabilities across both the Active and 
Reserve force.
    Mr. Banks. Okay. My time has expired. I yield to Mr. 
Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair, and thank you all for 
being here today.
    The budget request for fiscal year 2019 includes an Army 
request for $47 million to procure 133 ground mobility vehicles 
[GMVs], which are fairly small, unarmored Jeep-like trucks, for 
a unit cost of $271,000 each. Twice what a typical Humvee 
costs. Fiscal year 2018 budget included a request for 100 
vehicles of the same type for $260,000 each. For these 
procurements the Army has proposed doing a sole source contract 
award to procure a modified version of the Special Operations 
Command vehicle.
    The Army, based on an urgent needs statement, plans to 
procure 5 brigade sets totaling about 300 vehicles via the sole 
source contract with the plan for a competition in the future 
to buy more.
    General Murray, do you think the cost per vehicle for more 
than $270,000 each is warranted? I ask because there appear to 
be several commercially available vehicles on the market for 
much less.
    And the Army already has large numbers of unarmed Humvees 
that meet most of the requirements for this vehicle. Simply 
put, are we going to spend more than we should?
    General Murray. Sir, on the GMV and if you don't mind, I 
will start with the sole source contract. So, in our opinion 
that is not true. We bought off an existing SOCOM contract, so 
the SOCOM was buying this vehicle.
    They had headspace in their contract. This contract was 
competed prior to us buying off this contract. So we leveraged 
the SOCOM specifications. We leveraged the SOCOM open 
competition that this vehicle went through before we bought off 
the headspace in their contract.
    So in our opinion it is not a sole source contract, that we 
are buying off the SOCOM contract. The primary consideration 
for this vehicle when the decision was made to go with the 
SOCOM contract was speed for, as you stated, five airborne 
IBCTs.
    The full and open competition which has funding in 2019 to 
complete is for 30 IBCTs. Is the 270 high? It is higher than 
some of the options on the market. But this was the fastest way 
to get this requirement to the field because the competition 
was done, the EMD [engineering & manufacturing development] 
phase was done. The downselect was done, so a lot of the things 
that takes up those years to get to a--what it is you are going 
to buy was done by SOCOM before we opted to buy off that 
contract.
    Mr. Carbajal. Thank you very much.
    General Ostrowski, is there detailed records about the 
decision-making process that led to what was articulated by 
General Murray?
    General Ostrowski. Yes, sir. We certainly documented that. 
I do have the SOCOM contract. I do have the modifications to 
the SOCOM contract that we can certainly make available to you.
    How it was competitively awarded. How we modified that 
contract in order to reduce the cost of vehicle because we 
didn't need all of the components that SOCOM had on that 
vehicle. All the bells and whistles we didn't need because 
again, what we needed was a capability to move in a period of 
darkness from a drop zone to a landing strip at the speed that 
is faster than the boot. And so hence, the five airborne 
brigades to start with.
    The key thing here, sir, is that the competitive piece of 
this is going to be where industry is going to have the 
opportunity to really get after. Right now, we are going to 
have vehicles in the field in 2018 going off the SOCOM 
contract. Otherwise, we would not have had vehicles in the 
field until 2020. The intent is with the award of the 
competitive contract, as General Murray alluded to, the intent 
is to bring that forward and have the ability for the other 30 
brigades to have a capability, again, competitively awarded, 
but we hope at a much cheaper price.
    Mr. Carbajal. Thank you very much. I look forward to 
getting that from you in writing if possible.
    Mr. Chair, I yield back.
    Mr. Banks. The gentleman yields. And being in the chair has 
its privileges, so I am going to yield another 5 minutes to 
myself. And back to you, General Murray and General Ostrowski. 
I wonder if you could talk--there has been some confusion about 
the objective of the next-generation combat vehicle program.
    And I wonder if you can talk about that for a moment. How 
the Army is balancing its investments in incremental upgrades 
for current vehicle systems versus next-generation 
capabilities.
    So, General Murray.
    General Murray. So that is the fundamental dilemma, sir. I 
mean you just hit it right on the head right there. And it is 
beyond next-generation combat vehicle. I mean that is the 
inflection point that I talked about or the decision point 
where the Army is.
    It is not so much stress in 2019 because of the newness of 
the CFTs at that point, but in 2020 as we build it, it is how 
you balance that investment between current, the incremental 
upgrades for the near term and where you start investing 
heavily in future capability because the period in between when 
you can start fielding new and when you stop upgrading old is 
risk, that you are really saying that the current fleet is good 
for X numbers of years, whenever you can cut into that new 
system.
    Next-generation combat vehicle has been described in a 
variety of ways and I go back to the original construct that I 
have heard briefed by General Les Brown to both the Chief and 
the Secretary and it is really along two paths.
    And we really won't know where we are going until we do 
some of the experimentation, prototyping, the early evaluation 
by soldiers, which is one of the most important aspects of the 
CFTs is get equipment into the hands of soldiers early and 
often throughout the process, we can get their deliberate 
feedback before we write a requirements document. There is no 
requirements document written for next-generation combat 
vehicle.
    But the path we are on right now basically is two 
fundamental paths. A manned variant of some size, shape that 
would carry probably a couple crewmen and up to five or six 
soldiers in the back, that it has to be manned or unmanned at 
the commander's call at the point of decision whether you send 
a vehicle forward unmanned for instance into a breach. You 
probably want to send an unmanned vehicle or you actually crew 
that vehicle. And then the second path is remote combat 
vehicles that could be tele-operated from the manned version.
    And so, one manned vehicle, tele-operated to robotic combat 
vehicles. That is fundamentally the two paths that the NGCV 
cross-functional team is working down.
    General Ostrowski. I will just add, sir, there is really 
three sprints as General Murray talked about with respect to 
the two different variants. The first sprint is going to take 
place between now and the fourth quarter 2019.
    And the opportunity there is to gain knowledge from some of 
these experimental demonstrators that we have, then to conduct 
another sprint. Add in additional technologies between now and 
2021, so the second quarter of 2021 will end the second sprint.
    Again, with soldiers. Getting feedback. Making use of 
existing technologies as well as future technologies. And then 
a final sprint, which gets us to the fourth quarter of 2023. 
Again, incorporating lessons learned, incorporating the 
technologies that come to bear and the rest of it in order to 
get to a decision point in 2023 of where we go from there.
    General Murray. And if I could just add real quick. So, I 
mean one of the key things of this is we won't get everything 
we want by whenever it is we field this. So building in the 
ability to add more capability as we go to upgrade the vehicle 
like we have done with the tank and the Bradley. So building in 
the size, the electrical capacity, the ability to add new 
technologies to it as we grow this vehicle.
    Mr. Banks. Can you elaborate on the cost?
    General Murray. In NGCV, I have got it right here. So right 
now there is $165 million in 2019 RDT&E.
    Mr. Banks. What about through 2023?
    General Murray. That--I am sorry, sir. Pushed the wrong 
button. It is all pre-decisional. So that is what we are 
working right now on the POM [program objective memorandum] 
build.
    Mr. Banks. Okay. Thank you very much.
    Thanks to each of you. This has been very informative just 
in the brief time that I have been here today as we near the 
NDAA period. So we appreciate your testimony and your 
participation.
    The hearing has adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             April 18, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 18, 2018

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 18, 2018

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. GALLEGO

    General Murray. During the Army's holistic network strategy review, 
it was clear that Warfighter Information Network-Terrestrial (WIN-T) 
Increment (INC) 2 was not adequate to meet the total Army's long-term 
network requirements. As such, the Army as part of its Halt, Fix, Pivot 
network modernization strategy, made the decision to:
    a. Baseline the Active Component Armored Brigade Combat Teams 
(ABCT), Fires, Combat Aviation Brigades and all Army National Guard 
units, which includes SBCTs, on WIN-T INC 1B (Joint Network Node (JNN), 
Satellite Tactical Terminal (STT), Command Post Node (CPN))
    b. Complete fielding and modernization of WIN-T INC 2 in the Active 
Component Infantry BCTs (IBCT) and Light Divisions:
    (1) Replace Family of Medium Tactical Vehicles based Tactical 
Communication Node (TCN)/Network Operations Security Center (NOSC) 
heavy with the High Mobility Multipurpose Wheeled Vehicle-based 
Transportation Control Number (TCN)/Network Operations and Security 
Center (NOSC) Lite
    (2) Maintain Point of Presence (PoP) and Soldier Network Extension
    c. Complete fielding of WIN-T INC 2 to Active Component Stryker 
Brigade Combat Teams (SBCT):
    (1) Three of seven SBCTS will be fielded as of Fiscal Year 2019 
(FY19) (TCN/NOSC Heavy, Point of Presence (PoP), Soldier Network 
Extensions (SNEs)
    (2) The remaining four Active Component SBCTs will be fielded with 
PoPs, SNES and displaced TCN/NOSC Heavy systems from the Active 
component IBCTs no later than FY21.
    d. Close out the WIN-T INC 2 effort in FY21 Leveraging the Army's 
network modernization strategy in this manner allows us to synchronize 
capability within the formations across the force, and maintain 
interoperability, while providing the time and ability to identify and 
implement more appropriate solutions for the future.   [See page 18.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 18, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. As we work to modernize both small arms and all our key 
assets in the battle space one of the key elements is increasing 
connectivity--while improving both efficiency and lethality. I 
understand that you are in the process of developing the next 
generation of squad weapons and that in the near future we will see 
technological advances that dramatically upgrade both energy efficiency 
and secure communications through inductive rail technology. Could you 
please provide me with a status report re: acquisition of these new 
``smart'' small arms platforms?
    General Murray. The smart rail capability that you have identified 
is included as a requirement in the approved Next Generation Squad 
Weapon (NGSW) Initial Capabilities Development Documents (ICD). The 
requirement specifies the need for a Data Transfer Rail (power and 
data). This rail will be capable of transferring both data and power 
and will integrate with various fire control components and other 
enablers mounted on the weapon system. The Army will begin soliciting 
industry to provide prototype weapon systems that incorporate smart 
rail technologies. The test and evaluation effort for this capability 
is scheduled to begin in early FY 2020.
    Mr. Turner. I'd like to know your opinion on the Small Business 
Innovation Research (SBIR) program. Do you think that the program is 
useful for ensuring the innovation and diversification of our 
industrial base? In what ways can we develop the program to be more 
advantages for both the DOD and industry. The health of our industrial 
base is essential for our future national defense, I look forward to 
continuing to encourage innovation through these programs with you.
    General Murray and General Ostrowski. The Small Business Innovative 
Research (SBIR) Program is useful in ensuring the innovation and 
diversification of our industrial base. Some ways that we can develop 
the program are to reinstate 3% administrative funds; waiving the 
requirement for Phase II awardees to have a DCAA-approved cost 
accounting system; permit consecutive Phase II awards; and fund/provide 
additional transition assistance. Administrative funds help provide 
additional outreach, especially to underrepresented states in DOD's 
SBIR investment, and it provides funds to establish dedicated 
contracting personnel who are experienced, knowledgeable and efficient 
in awarding SBIR contracts. Dedicated contracting personnel can shorten 
the time between the Phase I and Phase II awards, which is often a time 
of cash flow challenge for small businesses. The time from completion 
of the Phase II work--development of the working prototype--to 
commercialization is called ``the valley of death'' because it can take 
up to 10-12 years for a small business to realize commercialization of 
their innovative technology. Funding and providing additional 
transition assistance may be able to shorten that time to realize 
commercialization. Army will continue to expand opportunities for these 
small businesses to engage with Army labs to foster transition from 
Phase I to Phase II.
    Mr. Turner. In what ways has NATO standardization proven 
advantageous for your service? Do you believe that we should continue 
to seek NATO standardization in our procurement/research/development 
programs?
    General Murray and General Ostrowski. NATO standardization has been 
extraordinarily beneficial. It is the foundation of interoperability in 
materiel, doctrine, and operations. We need to continue to improve our 
investments in procurement/research/development and continue to promote 
the sales of U.S. interoperable capabilities to our NATO partners.
    The Army is optimizing for interoperability with our allies and 
partners to strengthen alliances and deliver more effective coalition 
operations.
    Standardization, testing, and compatibility certification of 
ammunition to NATO standard Soldier weapons provides a wide range of 
small arms ammunition choices that can be confidently used. 
Collaborative agreements, such as the Ground-Based Air Defense (GBAD) 
Memorandum of Understanding (MOU) facilitate information sharing, 
exercises, and coordination of these essential command, control, and 
deterrent capabilities in peace time. This agreement allows the 
warfighter to access information which enables networking of surface-
based air defense capabilities. Another example of how NATO 
standardization has supported interoperability is through Artillery 
Systems Cooperative Activities (ASCA). ASCA developed a software 
interface that allows nations to digitally link and translate between 
different field artillery and fire support systems in a faster, more 
effective way. This digital link improves the effectiveness and 
interoperability of allied artillery systems. The Land Battle Decisive 
Munitions Precision Guided Munition MOU provides for common sharing, 
storage, and ammunition surveillance for signatory nations. 
Standardization is an interoperability force multiplier, which enables 
U.S. and allied forces to operate side by side or in support of each 
other.
    Mr. Turner. As we work to modernize both small arms and all our key 
assets in the battle space one of the key elements is increasing 
connectivity--while improving both efficiency and lethality. I 
understand that you are in the process of developing the next 
generation of squad weapons and that in the near future we will see 
technological advances that dramatically upgrade both energy efficiency 
and secure communications through inductive rail technology. Could you 
please provide me with a status report re: acquisition of these new 
``smart'' small arms platforms?
    General Ostrowski. The smart rail capability that you have 
identified is included as a requirement in the draft Next Generation 
Squad Weapon (NGSW) Capabilities Development Documents (CDD). The 
requirement specifies the need for a Data Transfer Rail (power and 
data). This rail will be capable of transferring both data and power 
and will integrate with various fire control components and other 
enablers mounted on the weapon system. The draft NGSW CDDs are 
currently in staffing at the Headquarters, Department of the Army, and 
are expected to be validated by the Army Requirements Oversight Council 
this Fiscal Year (FY) 2018. Once the requirements have been validated, 
the Army will begin soliciting industry to provide prototype weapon 
systems that incorporate smart rail technologies. The test and 
evaluation effort for this capability is scheduled to begin in early FY 
2020.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. The Army and Marine Corps have a varied history of 
working together on developing and fielding platforms. While both are 
essentially ground forces with their own vehicle and aircraft fleets, 
they have sometimes pursued modernization in a truly joint nature (like 
the JLTV) or in a common nature (like the Abrams tank). On other 
occasions they have chosen to go down completely different roads while 
pursuing similar capabilities (like the USMC's Huey and Cobra vs the 
Army's Black Hawk and Apache). One of the next big opportunities for 
collaboration is on the evolving Future Vertical Lift program that is 
structured to replace Hueys and Black Hawks. Do you see this playing 
out more like the JLTV where both Services make concessions to achieve 
commonality or do you see it being more like the Huey and Black Hawk 
where service-unique needs outweigh the benefits of jointness?
    General Murray and General Ostrowski. The Future Vertical Lift Long 
Range Assault Aircraft (FLRAA or Capability Set 3) is an Army led 
multi-service initiative with joint participation from the USMC. A 
Joint Analysis of Alternatives (AoA) is currently being conducted to 
assess both the service unique requirements and opportunities for 
commonality. A critical component of the AoA is the Joint Trades 
Analysis to be conducted after the service unique requirements have 
been identified. The Joint Trades Analysis is a three pronged effort 
focusing efforts to determine if benefits of service concessions can 
lead to an identical aircraft, a common dynamics system, or if benefits 
are not realized then components (seats, cockpits, special tools, etc) 
with high probability of commonality between the Army and USMC 
aircraft.
    Mr. Cook. I saw that the FY19 request was only for three Stryker 
upgrades at a price of $21 million. Is that enough to keep the upgrade 
production line open? What is the Army's plan to upgrade Strykers to 
the most modern A1 configuration?
    General Ostrowski. The minimum efficient production rate is 
approximately one third of a Stryker brigade per year (120 vehicles) 
which has been met through a combination of vehicles going through an 
upgrade process and vehicles going through a modification process 
utilizing different funding lines.
    In March 2018, the Army approved replacing the flat bottom Stryker 
brigades with Stryker Double V-Hull (DVHA1s). The Army submitted an 
FY18 Above Threshold Reprogramming request and a request to shift FY19 
funding within Stryker funding lines that when combined with the 
current FY19 budget request will procure approximately one-half of a 
Stryker brigade (168 vehicles). The Army would like to continue the 
DVHA1 production rate at approximately one-half Stryker brigade per 
year until all flat bottom Strykers have been replaced with DVHA1s.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CARBAJAL
    Mr. Carbajal. General Ostrowski and General Murray, we understand 
the urgent need for Counter Unmanned Aerial Systems (C-UAS) and 
Maneuver Short Range Air Defense (M-SHORAD) capabilities, and we 
appreciate the Army working quickly to provide soldiers this necessary 
equipment. Do you believe there are synergies between the two missions 
that the Army can leverage and field a common capability that meets 
both missions requirements? Would you consider this approach if it was 
proven to reduce costs and accelerate fielding?
    General Murray and General Ostrowski. Yes, we have identified some 
synergies already, including fire control and command and control. 
Those synergies led us to use a common turret and common command and 
control system, which reduced cost and accelerated fielding. We will 
continue to assess the opportunity to integrate the two systems into a 
common capability.
    Yes, we will continue to assess the opportunity to field common 
capability in the future, especially if it reduces costs and 
accelerates fielding.
    Mr. Carbajal. General Walsh and General Shrader, we understand that 
the Marine Corps may be looking to utilize common requirements for 
developing the weapon system that will be integrated onto ground 
vehicles against unmanned aerial systems and for mobile short-range air 
defense. Can you please tell the committee today what the benefits are 
with taking on this approach? For example, would you plan to see 
considerable cost savings and quicker fielding of systems if you had 
one weapon system to meet both missions?
    General Walsh and General Shrader. The Marine Corps is applying 
lessons learned from Joint Urgent Operational Need (JUON) CC-0558 and 
Joint Emergent Operational Need (JEON) ST-008 Counter UAS (CUAS) 
efforts into the Ground Based Air Defense (GBAD) Program of Record, 
Marine Air Defense Integrated System (MADIS). MADIS is the integration 
of enhanced anti-air warfare capabilities onto JLTVs to provide our Low 
Altitude Air Defense Battalions contemporary proficiency against 
current & future air threats from near-peer to non-state actors. The 
MADIS enhancements incorporate state-of-the-art radar, optics and C2 
with kinetic/non-kinetic surface to air weapons which will provide the 
MAGTF a truly mobile & adaptable short range air defense capability to 
detect, track, ID and defeat threat UASs as well as fixed wing/rotary 
wing threats. There are significant benefits to this approach 
including:
    <bullet>  Rapid fielding Expeditionary MADIS (E-MADIS) & Light 
MADIS (L-MADIS) activities began in 3QFY17 with fielding of systems 
starting in 2QFY18 in response to JUON-0558. These initial efforts are 
now informing the MADIS Program of Record, which meets its Initial 
Operating Capability in FY21.
    <bullet>  Cost and time savings through integrating new 
capabilities, as well as repurposing existing capabilities onto the 
JLTV. The MADIS is being designed with the idea that future air defense 
upgrades and advancements will occur, and this system can be rapidly 
upgraded with little to no modification to the JLTV. This will be 
accomplished with the use of slide-on & slide-off air defense 
components to MADIS' ``Picatinny Rail'' configured turret.
    <bullet>  UNITY OF EFFORT. Employing many of the same short range 
air-defense (SHORAD) capabilities the Army intends to employ on their 
Maneuver SHORAD Stryker.
    <bullet>  ECONOMY OF FORCE.
        <bullet>  In short order, MADIS can be mission configured based 
        on the threat (UAS, FW, RW or all of the above).
        <bullet>  Multiple mission capability provides not only force 
        protection for the forward deployed MAGTF, but can also be 
        easily employed at critical fixed sites including both OCONUS & 
        CONUS bases & stations.
        <bullet>  All R&D efforts are in close coordination/cooperation 
        with the Army's PEO Missile & Space--the two services testing & 
        selecting ``best of breed'' M-SHORAD capabilities for both the 
        USMC's JLTV (MADIS) & the Army's Stryker.
    <bullet>  SIMPLICITY. Standardized M-SHORAD operation, maintenance 
& training for both the Marine Corps & Army.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. We understand the urgent need for Counter Unmanned 
Aerial Systems (C-UAS) and Maneuver Short Range Air Defense (M-SHORAD) 
capabilities, and we appreciate the Army working quickly to provide 
soldiers this necessary equipment. Do you believe there are synergies 
between the two missions that the Army can leverage and field a common 
capability that meets both missions requirements? Would you consider 
this approach if it was proven to reduce costs and accelerate fielding?
    General Murray and General Ostrowski. Yes, we have identified some 
synergies already, including fire control and command and control. 
Those synergies led us to use a common turret and common command and 
control system, which reduced cost and accelerated fielding. We will 
continue to assess the opportunity to integrate the two systems into a 
common capability.
    Yes, we will continue to assess the opportunity to field common 
capability in the future, especially if it reduces costs and 
accelerates fielding.
    Mr. Bishop. We understand the Marine Corps may be looking to 
utilize common requirements for developing the weapon system that will 
be integrated onto ground vehicles against unmanned aerial systems and 
for mobile short-range air defense. Can you please tell the Committee 
today what the benefits are with taking on this approach? For example, 
would you plan to see considerable cost savings and quicker fielding of 
systems if you had one weapon system to meet both missions?
    General Walsh and General Shrader. The Marine Corps is applying 
lessons learned from Joint Urgent Operational Need (JUON) CC-0558 and 
Joint Emergent Operational Need (JEON) ST-008 Counter UAS (CUAS) 
efforts into the Ground Based Air Defense (GBAD) Program of Record, 
Marine Air Defense Integrated System (MADIS). MADIS is the integration 
of enhanced anti-air warfare capabilities onto JLTVs to provide our Low 
Altitude Air Defense Battalions contemporary proficiency against 
current & future air threats from near-peer to non-state actors. The 
MADIS enhancements incorporate state-of-the-art radar, optics and C2 
with kinetic/non-kinetic surface to air weapons which will provide the 
MAGTF a truly mobile & adaptable short range air defense capability to 
detect, track, ID and defeat threat UASs as well as fixed wing/rotary 
wing threats. There are significant benefits to this approach 
including:
    <bullet>  Rapid fielding Expeditionary MADIS (E-MADIS) & Light 
MADIS (L-MADIS) activities began in 3QFY17 with fielding of systems 
starting in 2QFY18 in response to JUON-0558. These initial efforts are 
now informing the MADIS Program of Record, which meets its Initial 
Operating Capability in FY21.
    <bullet>  Cost and time savings through integrating new 
capabilities, as well as repurposing existing capabilities onto the 
JLTV. The MADIS is being designed with the idea that future air defense 
upgrades and advancements will occur, and this system can be rapidly 
upgraded with little to no modification to the JLTV. This will be 
accomplished with the use of slide-on & slide-off air defense 
components to MADIS' ``Picatinny Rail'' configured turret.
    <bullet>  UNITY OF EFFORT. Employing many of the same short range 
air-defense (SHORAD) capabilities the Army intends to employ on their 
Maneuver SHORAD Stryker.
    <bullet>  ECONOMY OF FORCE.
    <bullet>  In short order, MADIS can be mission configured based on 
the threat (UAS, FW, RW or all of the above).
    <bullet>  Multiple mission capability provides not only force 
protection for the forward deployed MAGTF, but can also be easily 
employed at critical fixed sites including both OCONUS & CONUS bases & 
stations.
    <bullet>  All R&D efforts are in close coordination/cooperation 
with the Army's PEO Missile & Space--the two services testing & 
selecting ``best of breed'' M-SHORAD capabilities for both the USMC's 
JLTV (MADIS) & the Army's Stryker.
    <bullet>  SIMPLICITY. Standardized M-SHORAD operation, maintenance 
& training for both the Marine Corps & Army.

                                  [all]
</pre></body></html>
